                            WHITE PAPER



Towards A Postal Service
Intellectual Property Strategy

December 18, 2013




                      Report Number: RARC-WP-14-003
                                                               EXECUTIVE SUMMARY


Towards A Postal Service Intellectual
Property Strategy
In the contemporary knowledge-based                                  Highlights
economy, a significant portion of the value
of organizations consists of intellectual             The Postal Service has substantial
assets. Throughout its history, the Postal            intellectual assets, but lacks a formal,
Service has either invented or contributed            scalable, and organization-wide strategy
to the development of substantial                     for creating and leveraging them.
intellectual assets such as the ZIP Code,
optical character reader technology,                  A proactive organization-wide IP
                                                      strategy could use patents and other
address standards, and address
                                                      means to preserve access to public
management techniques, among other                    goods for American citizens and
innovations. The ZIP Code alone has                   businesses, increase innovation in the
annual value of $10 billion to the Postal             postal value chain, and protect the
Service and myriad other users in the                 ability of the Postal Service and its
public and private sectors, according to              customers to conduct business.
research by the United States Postal
Service Office of Inspector General (OIG)             Current intellectual asset management
and IBM. While the Postal Service has                 processes are relatively informal for a
obtained legal protection for some of these           large organization. They should be
inventions, recent OIG reports have found             standardized, aligned with an IP strategy
                                                      driven by top management, and
that the Postal Service has not extracted
                                                      disseminated widely to employees.
the full value of some of its intellectual
assets.                                               The Postal Service should consider a
                                                      combination of IP strategic models
These shortcomings point to the absence               suited for both legacy technologies and
of an organization-wide strategy for                  innovative product areas.
managing intellectual property (IP), which
are intangible assets that receive formal     As part of an overall IP strategy, several
legal protection. The main types of IP are    tactics, including filing for patents and
patents, trademarks, copyrighted works,       selective use of defensive publishing to
and trade secrets. The lack of an             supplement patents, can help the Postal
                                              Service achieve a return on investment.
organization-wide IP strategy risks a
number of negative consequences, such
as blocking access to public goods for American citizens and businesses, reducing

U.S. Postal Service Office of Inspector General                                     December 18, 2013
                                                  i
RARC-WP-14-003                                                       Towards a Postal Service Intellectual Property Strategy



innovation in the postal value chain, and reducing the ability of the Postal Service and
its customers to operate in both traditional and new product areas. For example under
current patent law, if the Postal Service were to invent the ZIP Code today, but another
inventor filed for a patent before the Postal Service, he could deny the Postal Service
and its stakeholders the numerous benefits identified by the OIG.1

In a recent illustration of the risks inherent in IP, industry sources and news outlets have
reported that patent holders are pursuing legal action against mailers and other
businesses for using bar codes and QR codes. Bar codes are a critical part of Postal
Service and mailing industry operations, and the Postal Service requires mailers to use
the Intelligent Mail Barcode (IMb) to qualify for discounts. Thus, such IP claims pose a
potential threat to the entire industry.

A clear, organization-wide IP strategy could address these issues and position the
Postal Service to form productive partnerships with other organizations. Given the
recent OIG findings, highly publicized developments in patent law and business
practices, and the importance of IP, the OIG retained external experts ipCapital Group,
Inc. to evaluate the Postal Service’s IP strategy and recommend any needed changes.
The research team examined the Postal Service’s intellectual asset management (IAM)
processes by interviewing 18 current and former Postal Service executives and
reviewing relevant internal documents. The consultants then performed a data-driven
analysis of the Postal Service’s patent portfolio, and the postal-related patents and
patent applications of 48 selected companies across 15 technology categories and
subcategories in the postal value chain. They also explored strategic models for IP
development and approaches to producing a return on investment from IP. Based on
this research, ipCapital provided suggestions on internal processes, strategies, and
tactics.

Review of Intellectual Asset Management and Patent Portfolio
The IAM process review revealed that despite pockets of effectiveness driven by
motivated inventors and IP attorneys, the Postal Service lacks a formal, scalable, and
organization-wide strategy for managing and leveraging its intellectual assets.
Employees are uncertain about which product or operational areas in which to focus
their inventions and which potential patents would provide the most value for the Postal
Service. Management should revise the IAM process, starting with widely disseminating
an IP strategy aligned with the agency’s product and business priorities to provide
direction to inventors and attorneys. In addition, management should establish criteria
for patenting or otherwise handling inventions, provide organization-wide best practices
for managing and protecting IP, and provide employees a “toolbox” of ideation
approaches in order to boost production of useful inventions.



1
  Recent changes in IP law, in the Leahy-Smith America Invents Act, reward the first inventor to file a patent
application, even if another party came up with the invention first.
2
  Office of Inspector General United States Postal Service, Revenue Generation Management, Report No. HR-MA-


U.S. Postal Service Office of Inspector General                                                         December 18, 2013
                                                       ii
RARC-WP-14-003                                          Towards a Postal Service Intellectual Property Strategy



The data-driven analysis uncovered a relatively strong Postal Service patent portfolio in
traditional postal technologies such as the “Track Trace Scan” and “Delivery”
categories. Patent activity, however, has leveled off for both the Postal Service and
other providers in the postal value chain since 2007. The decline could be related to the
recession, maturation of the industry, a lack of internal resources for patent applications,
or a blend of these factors. The Postal Service portfolio also lags behind many of its
postal industry peers in patent categories that involve newer digital technologies.

Intellectual Property Strategies
At the strategic level, the Postal Service should consider a combination of five
established strategic models identified by ipCapital. The five models are:

     1) Legacy Technologies model – IP forms a minimal part of business operations
        and assets. Innovation is not considered a core business function or source of
        competitive advantage. IP development is often seen as unnecessary or
        obsolete.

     2) High Technology model – An organization aggressively develops IP based on
        innovative technologies that are essential to its future business strategies.

     3) Open Source Platform model – This approach is used primarily in software
        development. The IP rights holder makes the IP freely available for public use,
        allowing crowdsourced innovation and fast detection of software bugs.

     4) Free Enterprise Platform model – The organization leverages its IP through
        licenses to the private sector, spurring innovation around the licensed IP.
        Proactive enforcement ensures that non-licensed entities cannot use the
        company’s IP without obtaining a license.

     5) Military Platform model – Government agencies use this model to develop
        technologies in conjunction with the private sector. The private sector then
        commercializes the technology.

A combination of strategic models is appropriate because the Postal Service has a
unique role as a government entity that is required to operate like a business. It also
manages different types of technologies: legacy technologies that support its traditional
mail and package business, and digital technologies that are relevant to the traditional
business but require different tactics. The Free Enterprise Platform model may be
suitable for older, established postal technologies. Under this approach IP could be
used to preserve the Postal Service’s ability to conduct its traditional business freely
(known as “freedom to operate” in IP jargon). The High Technology and Open Source
Platform models are likely to be most appropriate for more innovative technologies such
as the IMb and digital services, where the goals would be to deliver innovative products
at low cost and to stimulate public engagement with those products (such as the recent
requirement to use the IMb). The Open Source Platform model can also permit
crowdsourcing of product ideas and software development.


U.S. Postal Service Office of Inspector General                                            December 18, 2013
                                                  iii
RARC-WP-14-003                                            Towards a Postal Service Intellectual Property Strategy




An IP strategy can generally produce a return on investment (ROI) in six key ways:

     1) Improving competitive advantage;

     2) Increasing shareholder value;

     3) Gaining transaction leverage (enhancing negotiating position);

     4) Licensing IP for money;

     5) Expanding and protecting a brand; and

     6) Defining market boundaries (“protecting turf”).

For the Postal Service, another potential form of ROI is allowing postal stakeholders to
operate with a reduced risk of patent lawsuits.

Intellectual Property Tactics
The Postal Service can use a number of specific tactics to implement an overall strategy
and achieve the appropriate ROI. As part of the overall IP strategy, defensive publishing
merits consideration as a low-cost tactic to protect IP from appropriation by other
parties. Defensive publishing allows an inventor to publish a description of an invention
in order to keep another party from patenting the invention. An organization can use this
tactic selectively in order to help strengthen and support (not to replace) a core patent
portfolio.

Postal Service management should align these tools with the Postal Service’s high-level
goals such as revenue generation, cost reduction, operational efficiency, and providing
universal service. Case studies of five leading organizations in IP provide examples of
how to integrate IP tools to support corporate goals (Appendix E). A clear, proactive IP
strategy can help the Postal Service maintain the right to use certain technologies,
preserve citizen and private sector access to intellectual public goods, support
innovation in the postal value chain, and position the Postal Service to form productive
partnerships with other organizations.




U.S. Postal Service Office of Inspector General                                              December 18, 2013
                                                  iv
RARC-WP-14-003                                                                   Towards a Postal Service Intellectual Property Strategy




                                                  Table of Contents
Introduction ..................................................................................................................... 1
     Why the Postal Service Needs a Proactive IP Strategy ............................................. 2
     IP Background ........................................................................................................... 3

High-level Analysis of Current Postal Service IP Strategy and
Processes ....................................................................................................................... 4
     Intellectual Asset Management Process Review ....................................................... 4
     High-level Analysis of the Postal Service Patent Portfolio Position ............................ 6

Insights on Strategic Models and ROI for the Postal Service .......................................... 9
     Strategic IP Development ........................................................................................ 10
     Review of Industry Best Practices for Achieving ROI ............................................... 11
     The Postal Service IP Strategy Should Use a Combination of
     Existing Strategic Models ......................................................................................... 12

Conclusion .................................................................................................................... 17




U.S. Postal Service Office of Inspector General                                                                     December 18, 2013
                                                                 v
RARC-WP-14-003                                                             Towards a Postal Service Intellectual Property Strategy



                                                  Appendices
Appendix A                Companies Included in IP Analysis ..................................................... 18

Appendix B                Patent Analysis Technology Categories .............................................. 20

Appendix C                Detailed Descriptions of ROI Type and Market Rationale ................... 21

Appendix D                Company Examples of ROI Types ...................................................... 22

Appendix E                Five Case Studies of IP Strategies ...................................................... 25

Appendix F                Patent Terminology Glossary .............................................................. 35




U.S. Postal Service Office of Inspector General                                                               December 18, 2013
                                                            vi
RARC-WP-14-003                                                                   Towards a Postal Service Intellectual Property Strategy



                                                          Tables
Table 1                   IAM Process Suggestions ..................................................................... 6

Table 2                   Postal Service Patent Portfolio Compared with Leading
                          Service Providers in the Postal Sector .................................................. 9

Table 3                   Strategic Models .................................................................................. 10

Table 4                   Brief Summary of ROI Types and Relevant Company
                          Examples ............................................................................................. 12

Table 5                   Benefits and Drawbacks of Using a Combination of
                          Strategic Models .................................................................................. 13

Table 6                   Exemplary Tactics per ROI Type ......................................................... 14

Table 7                   Companies Examined ......................................................................... 18

Table 8                   Patent Technology Categories ............................................................ 20

Table 9                   ROI Type and Market Rationale .......................................................... 21

Table 10                  Profile of Swiss Post ............................................................................ 26

Table 11                  Pros and Cons of the Swiss Approach ................................................ 27

Table 12                  Profile of Google .................................................................................. 27

Table 13                  Pros and Cons of the Google Approach .............................................. 28

Table 14                  Profile of GE and Quirky ...................................................................... 29

Table 15                  Pros and Cons of the GE and Quirky Approach .................................. 30

Table 16                  Profile of NASA.................................................................................... 31

Table 17                  Pros and Cons of the NASA Approach ................................................ 32

Table 18                  Profile of MPEG-LA ............................................................................. 33

Table 19                  Pros and Cons of the MPEG-LA Approach ......................................... 33

Table 20                  Important Definitions............................................................................ 35




U.S. Postal Service Office of Inspector General                                                                     December 18, 2013
                                                                 vii
RARC-WP-14-003                                                                    Towards a Postal Service Intellectual Property Strategy



                                                          Figures
Figure 1                  Intellectual Assets and IP ...................................................................... 1

Figure 2                  Processes of Intellectual Asset Management ........................................ 4

Figure 3                  Total Postal-Related Applications and Patents of 48
                          Companies over 15 Years ..................................................................... 7

Figure 4                  Postal-Related Patents of 48 Companies by Technology
                          Category and Sub-Category .................................................................. 8

Figure 5                  Postal Service Patent Filings Over Time and Allocation by
                          Category ................................................................................................ 8

Figure 6                  Types of ROI From IP .......................................................................... 11

Figure 7                  Gillette Patent ...................................................................................... 22




U.S. Postal Service Office of Inspector General                                                                      December 18, 2013
                                                                 viii
RARC-WP-14-003                                                         Towards a Postal Service Intellectual Property Strategy




          Towards A Postal Service Intellectual
                  Property Strategy

Introduction
In the contemporary knowledge-based economy, a significant portion of the value of
organizations consists of intellectual assets. Intellectual property (IP) law provides an
inventor or creator exclusive rights to use, sell, or license such an asset. (Figure 1
shows the relationship between intellectual assets and IP). Throughout its history, the
Postal Service has either invented or contributed to the development of substantial
intellectual assets, such as the ZIP Code, optical character reader technology, address
standards, and address management techniques, among other innovations. While the
Postal Service has obtained formal IP
protection for some of these
                                                    Figure 1: Intellectual Assets and IP
inventions, recent OIG reports have
found that the Postal Service has not fully
extracted the value from some of its IP.2

The OIG retained external experts ipCapital
Group, Inc. to review the Postal Service’s
current IP strategy and recommend any
needed changes. ipCapital conducted an
intellectual asset management (IAM) review
of the Postal Service’s internal processes
for collecting its assets, converting them
into IP, and taking advantage of the IP. The
research team examined current Postal
Service practices through interviews with
management and a review of relevant
internal documents, and conducted
research into industry best practices and
specific IP approaches. The consultants
then performed a data-driven analysis of the Postal Service’s patent portfolio, as well as
the postal-related patents and patent applications of 48 selected companies across 15
technology categories and subcategories in the postal value chain. They also explored
five strategic models for IP development and six methods of producing a return on
2
   Office of Inspector General United States Postal Service, Revenue Generation Management, Report No. HR-MA-
13-004, September 26, 2013, https://www.uspsoig.gov/sites/default/files/document-library-files/2013/hr-ma-13-
004.pdf, Office of Inspector General United States Postal Service, Postal Service Patent Management, Report No.
DA-MA-10-004, August 24, 2010, https://www.uspsoig.gov/sites/default/files/document-library-files/2013/DA-MA-10-
004.pdf, and Office of Inspector General United States Postal Service, Postal Service Patent Management
Continuation, Report No. DA-MA-11-002, April 8, 2011, https://www.uspsoig.gov/sites/default/files/document-library-
files/2013/DA-MA-11-002.pdf.




U.S. Postal Service Office of Inspector General                                                           December 18, 2013
                                                         1
RARC-WP-14-003                                                        Towards a Postal Service Intellectual Property Strategy



investment from IP. The research team produced suggestions on internal processes,
strategies, and tactics.

The IAM process review revealed that the Postal Service would benefit from a formal,
scalable, and organization-wide strategy for managing and leveraging its intellectual
assets. Postal Service employees, particularly legal personnel, use a combination of
prescribed processes and ad hoc decision-making to capture innovations and obtain
formal IP protection.

The research findings suggest that the Postal Service should pursue a combination of
strategic models because of its unique role as a government entity that is required to
operate like a business. It also manages different types of technologies: legacy
technologies that support its traditional mail and package business, and digital
technologies that are relevant to the traditional business but require different tactics.
Going forward, the most suitable models for innovative technologies are likely to be the
high technology and open source models. These models can help ensure that the
Postal Service and key stakeholders have the ability to operate in innovative product
areas that are potentially lucrative or otherwise benefit the Postal Service and the
public.

Why the Postal Service Needs a Proactive IP Strategy
A recent OIG report found that the ZIP Code produces as much as $10 billion in annual
value to society, supporting critical functions in real estate, insurance, finance
marketing, the mailing industry, and government services. The OIG noted that “the ZIP
Code was established as an open use product publicly available from the outset.”3 The
Postal Service did not obtain a patent on the ZIP Code, and only filed for a trademark
ten years after deploying it. If the Postal Service were to create the ZIP Code today, it is
conceivable that a third party inventor could patent key portions of the technology.
Under recent changes to U.S. patent law, the inventor who is first to file for a patent,
rather than the first one to invent the item or process, owns the invention.4 Thus, unless
the Postal Service quickly filed for patent protection or took other measures to protect its
invention, the third party could prevent the Postal Service and others from using the ZIP
Code, or impose unreasonable costs on the Postal Service and the public for its use.
These concerns would arise whether the preferred Postal Service strategy is to protect
and monetize the ZIP Code, or to share it freely.




3
  Office of Inspector General United States Postal Service, The Untold Story of the Zipcode, Report No.
RARC-WP-13-006, April 1, 2013, https://www.uspsoig.gov/story/risk-analysis-research-center-
papers/untold-story-zip-code.
4
  Leahy-Smith America Invents Act, Public Law 112-79, Sec. 3. See also “USPTO publishes final rules and guidelines
governing first-inventor-to-file,” US Patent and Trademark Office, February 13, 2013,
http://www.uspto.gov/news/pr/2013/13-10.jsp.


U.S. Postal Service Office of Inspector General                                                          December 18, 2013
                                                        2
RARC-WP-14-003                                                        Towards a Postal Service Intellectual Property Strategy



More recently, websites reported that patent owners are pursuing legal action against
several mailers and other businesses for the use of bar codes and QR codes.5 The OIG
has not evaluated the details of these cases or the strength of the patent owners’
claims. Hypothetically, however, one potentially disturbing outcome is that mail users
could be barred from using the bar code or QR codes or required to pay licensing fees
to the patent holders. Such a result could be very harmful to the postal community.
Barcodes are used on most commercial mail, and are at the center of the Postal
Service’s Intelligent Mail Barcode (IMb) program designed to improve operations and
data collection. The Postal Service, the mailing industry, and marketers are trying to
increase the value of mail through innovative uses of QR codes. These legal issues
show how the IP positions of players in the postal “ecosystem” affect the Postal
Service’s bottom line. The Postal Service could use certain tactics including obtaining
patents, open source development, or defensive publishing to preserve the rights of
mailers and others in this ecosystem to use technologies such as bar codes. This would
help to maintain the value of the mail and preserve the Postal Service core mail
business.

IP strategy, then, is about more than monetizing IP through licensing or lawsuits. A
proactive strategy can also help the Postal Service and its customers maintain the right
to use certain technologies, preserve citizen and private sector access to intellectual
public goods, support innovation in the postal value chain, position the Postal Service to
form productive partnerships with other organizations, and allow postal stakeholders the
freedom to operate and benefit from new technologies.

IP Background
The main types of IP are patents, copyright, trademarks, and trade secrets. We focus
on patents in this paper, but many of the processes, tactics, and strategies we describe
can be used for the other types of IP. The core of IP strategy implementation is to
review an organization’s intellectual assets, identify protectable ideas that fit the
appropriate legal categories, and seek to leverage the assets by protecting and/or
monetizing them. The leverage is often executed through litigation, threats of litigation,
or licensing programs that allow others to benefit from the protected IP. An organization
should also be watchful for potential infringement of its IP, as well as, the potential for
competitors to block its strategic moves or curtail its current activities through their use
of IP. Such alertness can also reveal opportunities to license critical technologies owned
by other organizations, or to challenge patents before the U.S. Patent and Trademark
Office (USPTO) either prior to or after the patents are issued.

A patent gives inventors the right to exclude others from using or selling the invention
for a limited period of time. This monopoly status, granted by federal law, is a quid pro
quo for making the invention available to the public. A third party infringes on a patent

5
  Roger Smolski, “Use a Google short QR code in a URL and get sued,” 2d-code, June 17, 2013, http://2d-
code.co.uk/get-sued-by-using-a-google-short-url-in-a-qr-code/, and David Rosendahl, “Could you be sued for using a
bar code on direct mail?,” April 26, 2013, http://davidrosendahl.com/2013/04/26/qr-code-lawsuit-could-you-be-sued-
for-using-a-barcode-on-direct-mail/.


U.S. Postal Service Office of Inspector General                                                          December 18, 2013
                                                        3
RARC-WP-14-003                                                     Towards a Postal Service Intellectual Property Strategy



when, without permission from the IP owner, it makes or uses the invention; sells or
offers to sell it within the U.S.; imports the invention; or induces another party to take
any of these actions.6

High-level Analysis of Current Postal Service IP
Strategy and Processes
In order to understand the Postal Service’s current IP strategic position, ipCapital
worked with the OIG to conduct an intellectual asset management (IAM) process
review. Through a series of structured interviews, the research team determined the
current methods used by the Postal Service to develop, capture, and monetize IP. They
then performed a data-driven analysis of the Postal Service IP portfolio versus the
portfolios of relevant organizations, and analyzed the results.

Intellectual Asset Management Process Review
The research team conducted in-depth interviews with 18 key IP stakeholders within
Postal Service management. Interviewees were from various departments including
Legal, Engineering, Product Development, Marketing, and Licensing. Interviews were
held on-site and through teleconference.

The six main steps of IAM processes were used to structure the interviews (see Figure
2), to ensure that every IP related function was assessed.

                            Figure 2: Processes of Intellectual Asset Management




Source: ipCapital Group, 2013.

Findings from the IAM Process Review
Overall, the Postal Service IAM process lacks strategic guidance about where
employees should concentrate their inventions and which inventions should be
patented. There are, however, pockets of high functionality in which motivated inventors
seek ways to protect and monetize their inventions.7 The legal department provides
consistent support in the process, from educating groups on IP to working with inventors
to evaluate and pursue potential patent applications. Interviewees reported that the
Postal Service used to have a formal review committee to decide whether to file for
patent protection for inventions, but this approach is no longer in place. Despite
vigorous efforts by individual attorneys and inventors under the current informal
approach, even experienced inventors find the IAM decision-making process to be


6
  35 U.S.C. § 271.
7
  The Postal Service’s Employee & Labor Relations Manual (ELM) § 630 encourages employees to develop
innovations and offers monetary rewards for ideas submitted through the Postal Service Intranet.


U.S. Postal Service Office of Inspector General                                                       December 18, 2013
                                                      4
RARC-WP-14-003                                          Towards a Postal Service Intellectual Property Strategy



unclear, and individuals lack a sense of what inventions would add most strategic value
to the organization as a whole.

The Postal Service’s implicit IAM strategy is to use intellectual assets to support cost-
control, maintain the Postal Service’s right to practice, and to focus on inventions that
provide incremental improvements to existing services or processes. Although there are
specific areas with many patents, innovation and IP activities are not strongly
connected, and the overall volume of IP filings is low for an organization of this size.
The focus on cost control is not surprising, given the current financial challenges faced
by the Postal Service.

The current IAM approach utilizes relatively informal processes executed through
personal interaction between attorneys and inventors, and features a small pipeline of
inventions. The IP legal team is active but small, with one full-time patent attorney (an
additional four IP attorneys report to the Chief Counsel for IP) and little administrative
support. The Postal Service does retain external patent counsel when needed. Unlike
some other large organizations, however, the attorneys do not have substantial ongoing
support from non-attorney IP experts (such as patent agents, technical and licensing
personnel, or knowledge management experts) to file patent applications and to help
capture, evaluate, and process useful innovations. ipCapital found the IAM process to
be more consistent with a small company or startup than a large organization.

There is, however, significant potential for process improvement: internal groups are
creative and consistently work together to solve complex, technical problems. The
review of the IAM process led to the suggestions in Table 1.

The overarching message of these suggestions is to develop a more structured and
formal IAM process that is appropriate for the size and mission of the Postal Service.
This process should include periodic, widespread internal education for employees on
the importance of IP, and best practices for generating, capturing, and protecting ideas
and inventions. Management should select appropriate IP approaches for different
product or operational areas based on the broader organization’s strategy, and
communicate those approaches clearly to employees. In addition, as the Postal Service
continues to lose a large number of experienced employees due to retirement,
management should put a premium on harvesting their vast stores of knowledge
through formal exit interviews. The Postal Service can develop some of this knowledge
into valuable IP. If the Postal Service does not focus on capturing this knowledge, it will
be lost or used by other organizations. As employees engage with companies seeking
to do business with the Postal Service, management should also provide guidelines for
sharing and gathering information, including widespread use of non-disclosure
agreements (NDAs) before meetings with outside parties.

There is no single appropriate organizational structure for IAM processes. One common
approach is to designate employees reporting to the chief information officer or chief
technology officer to discover, vet, and rank innovations, feed inventions into the patent
pipeline, and work closely with the general counsel on patent filings (see, for example,
the NASA case study in Appendix E). If the Postal Service is going to keep up with

U.S. Postal Service Office of Inspector General                                            December 18, 2013
                                                  5
RARC-WP-14-003                                                            Towards a Postal Service Intellectual Property Strategy



today’s rapid pace of innovation, it likely needs more financial resources and personnel,
either internal or external, to support its IAM processes. Increased patent activity, if any,
should focus on the technology and product areas that Postal Service management
considers key to the future of the Postal Service (such as the IMb, track and trace
capabilities, and high priority digital products).

                                            Table 1: IAM Process Suggestions

                            High Priority                                  Medium and Low Priority
   Define an appropriate IP strategy to align use of           Clarify the documentation process and check to
   IP with overall organizational strategy                     ensure consistent documentation practices are
                                                               used organization-wide
   Define and implement an organization-wide set of
   IP best practices to ensure transparency and high           Regularly review portfolio, and divest or out-
   quality IP generation                                       license under-used IP assets

   Identify and offer a “toolbox” of ideation/creation         Develop a clear, codified trade secrets policy
   approaches to allow groups within the Postal
   Service to establish a broad pipeline of invention          Define sensible IP performance metrics to be
   concepts to consider*                                       tracked (e.g. patent/product utilization); begin
                                                               collecting and communicating metrics to groups
   Define criteria for disposition of inventions               and management
        Determine decision makers for patenting,
           including foreign filing decisions, and,
        When pipeline warrants it, re-establish an
           IP review committee process

   Create a defensive publishing process and
   educate groups on this low-cost protection
   approach

   Use exit interviews to capture knowledge of
   departing employees

   Establish and disseminate IP criteria and
   procedures for meeting with external parties
   (such as vendors and potential partners), sharing
   and gathering information, and for soliciting and
   handling ideas from external parties
        This should include widespread use of
           NDAs

   Consider devoting greater resources to IP for
   generating and harvesting inventions, filing patent
   applications, and related legal activities
 * The “toolbox” might include ideation software, facilitation processes, and checklists for brainstorming,
   capturing, and developing new ideas.
 Source: ipCapital Group and the OIG, 2013.


High-level Analysis of the Postal Service’s Patent Portfolio Position
ipCapital analyzed public data on the patent portfolios of the Postal Service and 48
companies in the postal value chain. (See Appendix A for the full list). In total, 2,311

U.S. Postal Service Office of Inspector General                                                              December 18, 2013
                                                           6
RARC-WP-14-003                                                           Towards a Postal Service Intellectual Property Strategy



patent families, representing 7,482 individual patent records, were screened and placed
in 15 different postal technology categories defined by ipCapital in consultation with the
OIG (See Appendix B for search categories and definitions).8

Findings on Overall Postal Sector Patent Portfolios
The analysis shows that the Postal Service and other companies have made significant
IP investments in postal-related technologies in the last 15 years (see Figure 3).
However, the rate of filings has steadily declined since the 2007 peak, with 2010 filing
rates at only 30 percent of the 2004 filing rates.9 It is not clear why the number of filings
from these specific companies is decreasing. Declining filing rates often occur due to
reduced IP budgets in a difficult economic environment, mature markets experiencing
more incremental improvements (making it more difficult to identify novel, patentable
solutions), or a general reduction in research and development (R&D) investment within
an industry toward new and/or disruptive products and services.

Overall, the majority of IP filed by these companies has been focused on Postage and
Payment technologies, with Sorting and Sorting sub-technologies (Machines, Methods,
and Systems of Sorting) and Digital Mail/Email also highly represented in filings (Figure
4).10

Categories that include digital or combined physical and digital technologies, including
Email and Digital Mail, had the most growth during the study period. Postage Machines
and Inks saw a steady decline in IP filings.

    Figure 3: Total Postal-Related Applications and Patents of 48 Companies over 15 Years

    250
    200
                                                                                                        Application
    150
                                                                                                        Patent
    100
     50
      0
          1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011 2012 2013
Source: ipCapital Group, 2013.




8
  A patent family is a grouping of all similar patents filed by the same assignee in different jurisdictions or forms.
9
  Filing rates from 2011 onwards are not conclusive, due to the 18-month blackout rule imposed by the United States
Patent and Trademark Office.
10
   Specific IP filings may be mapped to multiple relevant categories as applicable.


U.S. Postal Service Office of Inspector General                                                             December 18, 2013
                                                          7
RARC-WP-14-003                                                                                                                            Towards a Postal Service Intellectual Property Strategy



      Figure 4: Postal-Related Patents of 48 Companies by Technology Category and Sub-
                                            Category

 400
 300
 200
 100
      0




                                                                             + Sorting
                                                       Sorting
            Mail Prep




                                                                                         + Sorting




                                                                                                                                                                           + Email




                                                                                                                                                                                                                   Marketing
                        Postage &




                                                                 Machines




                                                                                                                                                            Digital Mail
                                     Machines & Inks




                                                                                                                                                                                     Infrastructure
                                                                                                                                                                                                      Security &
                                                                                                         Transport Model

                                                                                                                             Delivery

                                                                                                                                            Track Trace
                                                                                         Methods
                                                                             Systems
                                                                 + Sorting
                         Payment




                                                                                                                                                                                                                    Sales &
                                                                                                                                                                                                       Privacy
                                                                                                                                                                                        + Digital
                                       + Postage




                                                                                                                                               Scan
Source: ipCapital Group, 2013.

Findings on the Postal Service Patent Portfolio
The Postal Service portfolio analysis indicates a strong IP position in three technology
areas: the Track Trace Scan sector, where the Postal Service is the top IP holder with
42 patents; the Transport Model category, in which the Postal Service holds 14 patents
(UPS follows with a portfolio of four in this category); and the Delivery category, which
the Postal Service leads with 27 patents (see Figure 5 below). These areas of strength
are consistent with the focus of the Postal Service business practices.

          Figure 5: Postal Service Patent Filings Over Time and Allocation by Category


50                                  Patent               Application                                                                                      Mail Prep
                                                                                                                                   Postage and Payment
45
                                                                                                                           Postage Machines and Inks
40                                                                                                                                                          Sorting

35                                                                                                                                         Sorting Machines
                                                                                                                                             Sorting Systems
30
                                                                                                                                            Sorting Methods
25                                                                                                                                          Transport Model

20                                                                                                                                                         Delivery
                                                                                                                                            Track Trace Scan
15
                                                                                                                                                     Digital Mail
10                                                                                                                                                              Email

  5                                                                                                                                     Digital Infrastructure
                                                                                                                                        Security and Privacy
  0                                                                                                                                     Sales and Marketing
          2005
          2006
          2007
          1998
          1999
          2000
          2001
          2002
          2003
          2004




          2008
          2009
          2010
          2011
          2012
          2013




                                                                                                                                                                           0 10 20 30 40 50

Source: ipCapital Group, 2013.



U.S. Postal Service Office of Inspector General                                                                                                                                                       December 18, 2013
                                                                                                     8
RARC-WP-14-003                                                               Towards a Postal Service Intellectual Property Strategy



The Postal Service IP data reveals both strengths and opportunities with respect to IP
development and realization of value. Overall, the Postal Service filings show significant
strength (in terms of the number of patent filings) in multiple categories of the traditional
value chain, focused on hard copy mail. Newer digital growth categories show the
Postal Service positioned in the middle of the pack, with lower filing volumes overall.
The Track Trace Scan category, however, includes a number of Postal Service filings
that could be used as the basis to create products and services backed by IP protection.
Some well-timed, focused IP investment could lead to IP leadership positions in these
areas.

   Table 2: Postal Service Patent Portfolio Compared with Leading Product and Service
                              Providers in the Postal Sector
                            # of Patent Families in
     Company                  the 15 Categories                    Category with Most Patents
                                 (1998-2013)*
  Pitney Bowes                            646                   125 in Postage Machines and Inks
     Siemens                              259                          99 in Sorting Machines
      Neopost                             217                    62 in Postage Machines and Inks

         USPS                             209                           42 in Track and Trace
* Some double counting is possible because the patent families have been associated with multiple categories where
relevant. The main value of this table lies in its comparative properties.


Insights on Strategic Models and ROI for the Postal
Service
The research team supplemented the internal IAM process review with external
research to gain a broader view of IP trends and behaviors. The team conducted the
external research in three parts:

          The research team explored a selected group of strategic models for IP
           development. These approaches can be used by companies to structure the
           management of IP to support their organizational strategy. Each model is
           applicable to different market contexts and organizational goals.

          Six methods of creating return on investment (ROI) from IP were identified. Each
           ROI model can be used in concert with an appropriate strategic model, to amplify
           the impact of an overarching IP strategy on the success of the organization.

          Finally, the team compiled case studies of companies that have successfully
           implemented IP strategies and gained value from their IP portfolios.

Together, the external research illustrates the variety of inputs, models and factors that
need to be considered in determining an IP strategy, and the potential impact of
implementing it. When applied specifically to the Postal Service, these models and best
practices help to identify the best course of action in building an effective IP strategy.


U.S. Postal Service Office of Inspector General                                                                 December 18, 2013
                                                            9
RARC-WP-14-003                                                           Towards a Postal Service Intellectual Property Strategy



Strategic IP Development
A well-defined, appropriately chosen strategic model is the cornerstone of an effective
IP strategy, increasing the quality of innovation and the return on innovation investment.

Each model has an effect on invention, innovation, and patent creation, each with
benefits and drawbacks, and different requirements for success. The five strategic
models are highlighted in Table 3. For each strategic model, an existing company
example and the specific potential applicability to the Postal Service were also identified
in Appendix E.

                                                  Table 3: Strategic Models
                                                                                                 Applicability to the
   Model Name                                     Summary Description
                                                                                                   Postal Service
                           This model often represents the default path for mature
                           markets and low technology industries. IP forms a                Limited to closely defined,
Legacy                     minimal part of business operations and assets.                  non-competitive business
Technologies               Innovation is not considered a core business function or         areas, where a strong IP
Model                      source of competitive advantage. IP development is               position does not bring
                           often seen as unnecessary or obsolete due to                     significant ROI.
                           commoditization. Existing IP is typically not leveraged to
                           develop secondary revenue streams for the business.
                           IP is developed and leveraged to provide protection and
                                                                                            Applicable where the
                           support to its technology, products and services.
                                                                                            Postal Service competes
                           Typically, a legacy model transitions to a high
                                                                                            directly with others, so it
High                       technology IP strategic model in the context of
                                                                                            can:
Technology                 significant industry disruption. New businesses entering
                                                                                              • Differentiate products
Model                      high-technology markets adopt this strategic model to
                                                                                              • Secure freedom to
                           compete effectively with other high-technology firms.
                                                                                                operate
                           Leading firms use a variety of strategies to ensure
                                                                                              • Increase secondary
                           continued competitive advantage and freedom to
                                                                                                revenues
                           practice.
                                                                                            Postal Service could open
                           A company opens up its IP to others, spurring
                                                                                            all or selected parts of
                           innovation in that technology area. This creates an
                                                                                            portfolio to Open Source
                           innovation ‘ecosystem’, in which other innovators
                                                                                            or Open Innovation
                           develop its own contributions to the platform, while
                                                                                            models. IP use could be
                           being protected by the freely available IP. This approach
                                                                                            managed via agreements
Open Source                creates rapid network effects, increasing the adoption of
                                                                                            not to sue, restrictions on
Platform Model             the company’s technologies and approaches, ideally to
                                                                                            how technology is used, or
                           increase its revenue.
                                                                                            other covenants.
                           There are two primary approaches: (1) open source
                           models, and (2) open innovation models. Open
                                                                                            Open innovation would be
                           innovation is a more closely managed process of IP
                                                                                            particularly well suited to
                           development, while open source patents are simply
                                                                                            emerging business areas
                           made freely available.
                                                                                            such as digital services.




U.S. Postal Service Office of Inspector General                                                             December 18, 2013
                                                             10
 RARC-WP-14-003                                                            Towards a Postal Service Intellectual Property Strategy



                                                                                                   Applicability to the
    Model Name                                     Summary Description
                                                                                                     Postal Service
                            The company leverages its IP through licenses to the
                            private sector, spurring innovation around the licensed           To increase revenue in
                            IP. Proactive enforcement ensures that non-licensed               key business areas or
                            entities cannot use the company’s IP without obtaining a          using very high value
                            license.                                                          patents.
 Free Enterprise
 Platform Model             The organization determines which sections of the IP
                            portfolio are available for licensing, and under which            Potentially, in a ‘patent
                            terms the licensing of IP occurs. Variables include:              ambush,’ this tactic is used
                                                                                              to license key IP that
                                  Areas of portfolio available for licensing
                                                                                              exists as part of an
                                  Exclusive or non-exclusive licenses
                                                                                              industry standard.
                                  Licenses only to companies in different markets
                                                                                              Postal Service could use
                            IP is jointly developed with partners, with the federal
                                                                                              the military platform to
 Military Platform          institution retaining US rights, or rights for use in its
                                                                                              develop innovations and
 Model                      particular business area. The IP can then be licensed
                                                                                              IP with non-US partners,
                            out to the private sector, non-profits and government
                                                                                              or Postal Services from
                            entities, creating secondary revenue streams.
                                                                                              other countries.
Source: ipCapital Group, 2013.

 Review of Industry Best Practices for Achieving ROI
 The best practice use of strategic IP models calls for selecting one or more target return
 on investment (ROI) mechanisms for IP and designing the IP strategy and tactics to
 match. Generally, the ROI approach is chosen based on the best fit for the company’s
 business objectives and needs.

 To select an appropriate ROI, the company
 will typically consider factors including:                               Figure 6: Types of ROI From IP

           What are the overarching strategic
            goals of the organization?

            Example: Does the company seek to
            generate revenue from non-core
            areas of business?

           What is the nature of the value chain
            and market in which the company
            operates?

            Example: If suppliers are
            aggressively moving into a
            company’s space, this heightens the
            need to develop protective IP in that
            area.
                                                                   Source: ipCapital Group, 2013.




 U.S. Postal Service Office of Inspector General                                                              December 18, 2013
                                                              11
RARC-WP-14-003                                                            Towards a Postal Service Intellectual Property Strategy



           What is the general culture/philosophy of the company?

            Example: Is there a drive to create all invention inside the company, or more of a
            collaborative environment to work with multiple partners?

           What is the internal process for IP generation?

            Example: Does the company have the team and skills to develop IP for out-
            licensing?

Based on these types of factors and behaviors, ipCapital observed six general
categories of ROI from IP, as shown in Figure 6.

              Table 4: Brief Summary of ROI Types and Relevant Company Examples

           ROI Type                               Brief Description                              Company Example
                                  IP is used to increase and protect market share,
Improve Competitive
                                  and avoid commoditization of products and                     The Gillette Company
Advantage
                                  services.
                                  IP is used to create a barrier around the market,
Define Boundaries                 preventing would-be competitors from offering                        Qualcomm
                                  competing products.
Expand and Protect                IP is leveraged to expand on the value and utility
                                                                                                          Dyson
Brand                             of the organization’s brand identity.
                                  The organization out-licenses its IP to customers,
License IP                        suppliers, competitors and, if desired, into non-                 General Electric
                                  core market applications.
Gain Transaction                  IP is used to increase the position of the
                                                                                                          Boeing
Leverage                          organization in negotiations and transactions.
                                  IP is used to generate, grow and protect income,
Increase Shareholder
                                  increasing the net present value (NPV) of future                          AOL
Value
                                  cash flows.
Source: ipCapital Group, 2013.

Implications, tactics, activities, and priorities can vary significantly across the types of
ROI, and multiple ROIs may be applicable to any given organization. Table 4 provides a
brief definition and company example for each ROI, and Appendix D provides additional
information on each ROI type, including a more detailed definition, market rationale, and
a more in-depth company example for each.11

The Postal Service IP Strategy Should Use a Combination of Existing
Strategic Models
Opportunities may exist for the Postal Service to use multiple strategic development
models, and multiple ROI types, depending upon the specific product or technology
area. The Postal Service is in a unique position as a government agency with

11
     See Appendix D for greater detail on each ROI and descriptions of the company examples.


U.S. Postal Service Office of Inspector General                                                              December 18, 2013
                                                            12
RARC-WP-14-003                                                        Towards a Postal Service Intellectual Property Strategy



commercial functions. In addition, it must manage a physical side of the business (e.g.
sorting, mail handling, and delivery) and a growing digital side of the business (e.g.
track, trace and scan, digital services, and address management) which is relevant to
the core mail and package businesses.

Further, the postal ecosystem consists of companies that are quite different in size and
nature depending upon the technology focus; these firms must be taken into
consideration in choosing and implementing an IP strategy model.

Therefore, the most appropriate approach for the Postal Service is to use a combination
of existing models. Management should apply different models to different segments of
the organization or the market depending on need. The specific choices and balance of
models is based on factors including the technology type, licensee type, the value of
patents in any given area, or the strategic importance of innovation types.

         Table 5: Benefits and Drawbacks of Using a Combination of Strategic Models

                                 Benefits                                    Drawbacks
           Allows focused application of the
                                                              Using various strategic models involves
            appropriate strategy to the most
                                                               more management (and potentially more
            applicable aspect of the business
                                                               cost) than a single, uniform model
           Takes into account the large scale and
                                                              Allocation of different models has to be
            diversity of Postal Service operations —
                                                               reexamined periodically to ensure
            a ‘one size fits all approach’ may not be
                                                               relevance
            a good fit

A combination of models would provide strategic flexibility for the Postal Service
Using a combination of IP models allows the Postal Service to choose from a variety of
strategic approaches and tactics given the nature of each business area. In particular,
this is relevant to the distinction between the legacy-technology based physical delivery
aspects of the business, as compared to the growing digital, high-technology aspects of
the business.

Businesses based on older technologies may be more suited to using strategies such
as Free Enterprise Platform Model, with a focus on developing and licensing IP to
industry competitors and collaborators. The primary roles of IP in these lines of
business are to protect the Postal Service’s freedom to operate, to ensure ongoing
protection when collaborating with other industry participants, and potentially, to create
stable secondary revenue streams. The choice of strategic model and mechanism of IP
ROI should be based on those primary objectives.

Conversely, in high technology business areas, such as digital services, identity
management, and other innovative offerings, the priority for the Postal Service is to
deliver innovative products at a relatively low cost and to create public engagement with
those products. The Open Source Platform model would work in tandem with those
goals, allowing the creation of a product ecosystem with many stakeholders engaged in
the development of product offerings, using Postal Service IP. Use of ROI mechanisms
such as Expand and Protect Brand, alongside Improve Competitive Advantage, allows

U.S. Postal Service Office of Inspector General                                                          December 18, 2013
                                                        13
RARC-WP-14-003                                                          Towards a Postal Service Intellectual Property Strategy



the Postal Service to use its IP to communicate its commitment to innovation in the
postal sector. Due to the more innovative nature of these emerging technologies, the
Postal Service can more actively leverage development mechanisms to ensure it
maintains a position at the forefront of the technology.

                                       Table 6: Exemplary Tactics per ROI Type

     ROI Type                  Exemplary Tactic                            Definition/Details
                                                             Companies patent the pioneering part of invention
                                    Patent-Part,             and publish enabled descriptions (defensive
                                     Publish-Part             publishing) of incremental improvements around
                                                              the base invention
Improve                                                      Particularly useful to safeguard against others
Competitive                                                   creating a “picket fence” around your base patent
Advantage                                                     by obtaining their own patents

                                    Participate in          Cooperate with other organizations (such as other
                                     standards setting        posts through the UPU) to develop common
                                                              technical standards based on shared IP
                                                             Intentional development of inventions related to a
Define
                                    “Picket Fence”           core patent, which can be patented or published
Boundaries
                                                              to create a barrier to entry for other companies
                                                             Companies proactively align their technical IP with
Expand and                                                    their brand characteristics
                                    “Brand Maestro”
Protect Brand                                                Often the two are misaligned and don’t take
                                                              advantage of opportunities to synergize
                                    Buy or                  Companies license in key technologies and IP to
License IP
                                     License-In               speed their Open Innovation Processes

                                                             Companies partner with others outside own
Gain Transaction                    Non-Core Joint           industry to jointly develop IP
Leverage                             Venture                 Particularly useful in areas outside of “true” core
                                                              competencies
                                                             Companies develop the IP Story around a product
Increase
                                    IP Story to              or technology and message it to Wall Street
Shareholder
Value
                                     Analyst                 Helps to build the story of being a true innovator
                                                              and supports growth
Source: ipCapital Group, 2013.

The Postal Service can use a variety of IP tactics to support the strategies and
ROI types
Each ROI can be linked to a set of IP tactics to support achieving that goal. There are
many common IP tactics in use per each ROI. A short exemplary list has been included
in Table 6. These are provided as examples and are not necessarily the ones that
Postal Service should use. In fact, different tactics may be selected for different
projects, technology, or product areas as appropriate. The nature and number of IP
tactics are really only limited by the creativity of the team devising and employing them.



U.S. Postal Service Office of Inspector General                                                            December 18, 2013
                                                         14
RARC-WP-14-003                                                             Towards a Postal Service Intellectual Property Strategy



Some common sense tactics involve an organization protecting turf in a lucrative space
by developing and patenting many key technologies in that area. (See the “picket fence”
tactic in Table 6). Another tactic is to use IP to protect an organization’s brand by
aligning patent filings with important brand characteristics. (See the “brand maestro”
tactic in Table 6). In addition to these approaches, the Postal Service can also use a
less obvious set of tactics to prevent other companies from blocking the ability of the
Postal Service and stakeholders to innovate.

Defensive publishing merits consideration in conjunction with patents as part of an
overall IP strategy.12 Defensive publishing is used to protect intellectual assets from
appropriation by other parties. The tactic is based on the legal requirement that an
invention be “novel” in order to receive patent protection. USPTO patent examiners
search for “prior art” to determine whether an invention meets the novelty requirement.
If an invention has been previously described in sufficient detail in a publication or
publicly available repository, this constitutes “prior art,” and another party cannot patent
the invention. An organization may decide to publish an article or explanation regarding
an invention in order to prevent other parties from later gaining exclusive rights over the
invention.

Defensive publishing is a way to preserve an organization’s right to practice in a
particular area. For example, IBM used its Technical Disclosure Bulletin from 1958 to
1998 to publish descriptions of its inventions in order to keep other parties from
patenting them and it continues to publish through other channels.13 These publications
supplement IBM’s massive patent portfolio — one approach involved obtaining a patent
and then publishing about extensions to the patented technology, so that third parties
could not patent those extensions and reduce the value of IBM’s patent.14 Defensive
publishing is a potentially low cost tactic for supporting a key patent, especially




12
   The Postal Service raises several cogent concerns regarding defensive publishing. Most notably, its attorneys
reckon that defensive publishing provides weaker protection than a patent. The OIG acknowledges these concerns
and notes that pursuing patents and defensive publishing are not mutually exclusive tactics and should be used to
reinforce each other as part of an overall IP strategy. For example, IBM reports that it has led the U.S. in the number
of patents received for 20 consecutive years, while it also considered the leading practitioner of defensive publishing
(see footnote 12). “20 Years of IBM Patent Leadership,” IBM Press Kit, January 10, 2012, http://www-
03.ibm.com/press/us/en/presskit/40033.wss. See also the “patent-part, publish-part” tactic in Table 6, which
describes using the two approaches together. Moreover, available resources limit the number of patents that the
Postal Service or any organization can obtain, while the number of valuable ideas and innovations is much larger
than the number of patentable inventions. In sum, for technologies that are key to the Postal Service’s business
strategies, filing a patent application is likely to be a superior tactic, while defensive publishing should be considered
as a way to support a key patent, when a patent is infeasible, or a patent would have a smaller direct payoff for the
Postal Service.
13
   See “Corporate and Institutional Backfiles: IBM Technical Disclosure Bulletin”, IP.com,
https://ip.com/search/collections-pad-backfile.html, “Non-Patent Prior Art Collections: Technical Disclosure Bulletins
(TBDs),” Delphion, http://www.delphion.com/products/research/products-priorart, and Ashlee Vance, “Patent king
I.B.M. will give away more ideas,” New York Times, January 14, 2009,
http://bits.blogs.nytimes.com/2009/01/14/patent-king-ibm-will-give-away-more-ideas/?_r=2.
14
   Richard Poynder, “On the defensive about invention,” September 25, 2001,
http://www.richardpoynder.co.uk/On%20the%20defensive.htm.


U.S. Postal Service Office of Inspector General                                                               December 18, 2013
                                                            15
RARC-WP-14-003                                                          Towards a Postal Service Intellectual Property Strategy



compared to the legal costs associated with filing multiple applications and litigating
patents.15

The Postal Service would have to use defensive publishing carefully, because
publication also prevents the author himself from patenting an invention. It is a sensible
tactic for supplementing patents where an organization wants to preserve IP rights for
itself, business partners, or various stakeholders. Where the Postal Service has a
strong proprietary interest in a technology, it should generally file a patent application
rather than publishing.

The Postal Service can also preserve its own rights and the rights of its customers and
complementary service providers to use IP by participating in technology standards,
particularly in product areas in which compatibility and interoperability help to increase
network effects.16 Standards stimulate network effects by allowing a wide variety of
complementary products to interconnect with a network and each other. For example,
the TCP/IP Internet protocols, the QWERTY keyboard, and the VHS standards allow
different elements (such as two or more computers, typists and typewriters, or a video
tape and VCR) to work together, and facilitated growth in their respective industries.17

Multiple technologies are often needed to produce a single product or a suite of
products. Without agreement on a common standard, then, warring IP holders (or even
a single firm or individual) can fragment a market by preventing companies and end
users from participating.18 Companies develop standards jointly to overcome this
problem. Standards organizations often require participants to disclose any IP relevant
to a standard and to license it to participants on fair reasonable and nondiscriminatory
terms. The Postal Service is a member of the Universal Postal Union (UPU), and
participates in its standard setting committees. For products (including complementary
products that the Postal Service itself does not sell such as QR codes, bar codes, and
augmented reality in mailings) with strong network effects, the Postal Service should

15
   Figures on the costs of patents and defensive publishing vary widely, but practitioners and scholars routinely cite
lower costs as a reason to use defensive publishing to supplement patents, rather than relying solely on patents. See
Jeff Lindsay, “Don’t Overlook the Power of Defensive Publications,” Innovationedge, February 12, 2010,
http://innovationedge.com/2010/02/12/publications/, and Poynder, “On the defensive about invention,”; Joachim
Henkel and Stefanie Pangerl, “Defensive Publishing: an empirical study,” Danish Institute for Research in Industrial
Dynamics, May 2008, http://www3.druid.dk/wp/20080004.pdf; , p. 20, Stephen Merrill, Richard Levin, Mark Meyers,
                                                               st
National Academies of Science, A Patent System for the 21 Century, National Academies Press, Washington, DC,
2004, http://www.nap.edu/openbook.php?isbn=0309089107; p. 38, and Sara Boettiger and Cecilia Chi-Ham,
“Defensive Publishing and the Public Domain” in Intellectual Property Management in Health and Agricultural
Innovation: a handbook of best practices, MIHR, PIPRA, Oswaldo Cruz Foundation, bio-Developments International
Institute, Ithaca, New York, 2007, http://www.iphandbook.org/handbook/chPDFs/ch10/ipHandbook-
Ch%2010%2001%20Boettiger-Chi-Ham%20Defensive%20Publishing.pdf, p. 892.
16
   See Carl Shapiro and Hal R. Varian, Information Rues: A Strategic Guide to the Network Economy, Boston, MA:
Harvard Press, 1999, p. 229. Network effects (also called network externalities) are present when the value of a
product to one user depends on how many other users there are, and are a common characteristic in high technology
and digital-based products. Shapiro and Varian, p. 13.
17
   Shapiro and Varian, pp. 185, 229, and “Brief history of the Internet”, Internet Society,
http://www.internetsociety.org/internet/what-internet/history-internet/brief-history-internet.
18
   Even when several organizations agree on a standard, a third party can assert a patent claim and try to prevent
participants in the standards body from using the technology. However, broad standards make it harder for outsiders
to block participants in the standard.


U.S. Postal Service Office of Inspector General                                                            December 18, 2013
                                                         16
RARC-WP-14-003                                                        Towards a Postal Service Intellectual Property Strategy



consider strengthening its participation in standards setting bodies, or leading new
standards efforts.

In addition, forming patent pools — a tactic in which two or more organizations agree to
license to each other patents relating to a particular technology — provides many of the
same benefits as standards setting. (See Appendix E for a case study of the MPEG-LA
patent pools). Finally, another potential tactic for addressing attacks such as the bar
code infringement claims is to challenge the validity of the claimant’s patent. The
America Invents Act expands the ways that third parties can challenge and invalidate a
previously granted patent.19

Case Studies
In adopting a strategy that utilizes a combination of IP strategic models, the Postal
Service can learn from a diverse range of organizations who have demonstrated
success with best-fit approaches. Appendix E analyzes five entities, evaluating their
impact on the market and how their proven strategies may be applicable. From General
Electric/Quirky’s use of crowdsourcing to Swiss Post’s focus on a strong and centralized
innovation development process and Google’s use of open source licensing, the Postal
Service could choose among these varying approaches based on which technologies
and product categories are targeted by management for further development or
protection.

Conclusion
The Postal Service has the opportunity to take better advantage of its intellectual
assets, including the innovations of its employees, and technical capabilities built over
many years. The existing intellectual assets are available to build a unique and effective
IP strategy for the Postal Service to support its current operations and future growth.
The IP strategy must consider each major product and technology area within the
Postal Service, and the approach and tactics selected should correspond to the
distinctive differences between those areas. While some investment is required, tactics
such as defensive publishing are cost-effective and can supplement patents without
significant capital investment, a paramount concern given the Postal Service’s financial
position. A flexible IP strategy approach that combines existing models, in concert with
appropriate ROI mechanisms, will provide the most effective path to extract value from
the significant IP assets held by the Postal Service, and to align the future development
of valuable IP with organizational goals.




19
  Deborah Sterling and Eldora L. Sterling, “New options for challenging patents under the America Invents Act,”
National Law Review, http://www.natlawreview.com/article/new-options-challenging-patents-uspto-under-america-
invents-act.




U.S. Postal Service Office of Inspector General                                                          December 18, 2013
                                                       17
RARC-WP-14-003                                                                Towards a Postal Service Intellectual Property Strategy



Appendix A Companies Included in IP Analysis
                                                  Table 7: Companies Examined

      Companies Examined                                       Sector                                   Country
     ABOL                                           Shipping Software                      USA
     Amazon                                         Online Retail                          USA
     Amber Road (f/k/a                              Global Trade Management                USA
     Management Dynamics)                           Software
     Bell & Howell                                  Consumer Electronics                   USA
     Borderfree/ FiftyOne                           International Commerce                 USA
     Canada Post                                    Postal Services                        Canada
     Cleveron (Estonia)                             Parcel Delivery                        Estonia
     Deutsche Post (incl. DHL)                      Postal Services                        Germany
     Digital Postal Mail                            Digital Postal Services                USA
     DST Output (a/k/a DST                          Information Processing and             USA
     Systems)                                       Management
     DYMO Endicia (incl. Newell                     Online Postal Services                 USA
     Rubbermaid, Esselte)
     EchoMail                                       Email Management Software              USA
     Escher                                         Retail and Message Based               United Kingdom
                                                    Software Solutions
     FedEx                                          Package Delivery/Courier Services      USA
     Fiserv                                         Financial Services Technology          USA
     Francotyp-Postalia                             Mailing Services Vendor                Germany
     Google                                         Internet Services                      USA
     GrayHair                                       Business Mail Management               USA
     Hearst (incl. Manilla)                         Mass Media                             USA
     Honeywell                                      Commercial and Consumer                USA
                                                    Products
     Huntington Bank                                Online Banking                         USA
     IBM                                            Technology and Consulting              USA
     InPost (Poland)                                Postal Services                        Poland
     Intermec – RFID                                Information Management                 USA
                                                    Solutions
     Keba                                           Industrial Services                    Austria
     La Poste (incl. Poste)                         Postal Services                        France
     Lockheed Martin                                Aerospace/ Defense/ IT                 USA
     Lyngsoe                                        Software Development/ Postal           Denmark
                                                    Solutions
     Monticello                                     Online Postal Services                 USA
     NCR                                            Computer Hardware/ Electronics         USA
     Neopost                                        Mailroom Equipment                     United Kingdom
                                                    Manufacturing
     Newgistics                                     Parcel Delivery                        USA
     Parascript                                     Document Recognition                   USA
     PCI Group, Inc.                                Document Delivery                      USA
     Pitney Bowes (incl. Volly)                     Packing/ Mailing/ Shipping             USA
     Postea (incl. IGI and Proiam)                  Logistics Solutions                    USA
     Quad/Graphics Inc.                             Commercial and Industrial Printing     USA
     RPost                                          Email Security Services                USA
     Satori Software                                Online Postal Services                 USA


U.S. Postal Service Office of Inspector General                                                                  December 18, 2013
                                                                 18
RARC-WP-14-003                                                             Towards a Postal Service Intellectual Property Strategy



        Companies Examined                                     Sector                                  Country
     Siemens                                      Engineering and Electronics           Germany
     Solystic (Northrop Grumman)                  Postal Sorting Solutions              France
     Stamps.com                                   Internet Based Postage Services       USA
     Swiss Post                                   Postal Services                       Switzerland
     TZ (incl. Telezygology)                      Parcel lockers and Data Security      Australia
     UPS                                          Package Delivery/Courier Services     USA
     VanDerLande                                  Logistics Equipment                   USA
     VISA                                         Financial Services                    USA
     Voltage                                      Data Security                         USA




U.S. Postal Service Office of Inspector General                                                               December 18, 2013
                                                              19
RARC-WP-14-003                                                                    Towards a Postal Service Intellectual Property Strategy




Appendix B Patent Analysis Technology Categories
                                        Table 8: Patent Technology Categories

                                                        Technology Categories
                                                  Preparation of envelopes, packages, automatic addressing.
  Mail Prep
                                                  Generally, prior to interaction with the Postal Service.
                                                  Devices, methods or systems for setting or determining postage.
  Postage and Payment
                                                  Stamps, fraud detection, postage-related tax.
                                                  Machines (including security inks) for processing postage/franking.
      Postage Machines and Inks
                                                  Inventions ancillary to postage machines.
                                                  All general sorting inventions. OCR, addressing, geocodes, ZIP
  Sorting
                                                  codes. Miscellaneous sorting.
      Sorting Machines                            Machines or devices that sort mail or aid the sorting process.

      Sorting Systems                             Systems, schema, or other methodologies for sorting mail.

      Sorting Methods                             Specific activities underlying or assisting sorting machines or systems.
                                                  Moving post between the Postal Service facilities. Route optimization,
  Transport Model
                                                  dynamic routing, carrier selection, international interfacing.
                                                  All activities leading to delivery to final destination. Mail carrier
  Delivery                                        equipment, virtual PO boxes, parcel lockers, post-receiving
                                                  processing.
                                                  Tracking mail through the postal system, proof of delivery and verified
  Track Trace Scan
                                                  delivery.
  Digital Mail                                    Email box, digital identity, hybrid mail.

      Email                                       Email.

      Digital Infrastructure                      Servers and other physical or digital infrastructure.
                                                  Authentication, proof of identity, safety, damage, digital signatures,
  Security and Privacy
                                                  cryptography.
  Sales and Marketing                             Promotions, coupons, sales, returns.




U.S. Postal Service Office of Inspector General                                                                      December 18, 2013
                                                                   20
RARC-WP-14-003                                                           Towards a Postal Service Intellectual Property Strategy



Appendix C Detailed Descriptions of ROI Type and
           Market Rationale
                                       Table 9: ROI Type and Market Rationale

ROI Type                                          Description                                Market Rationale

                                                                                   Widely applicable to most
                      IP is used to increase and protect market share, and
Improve                                                                            competitive contexts. Particularly
                      avoid commoditization of products and services. IP
Competitive                                                                        relevant in mature and crowded
                      rights allow the organization to define industry
Advantage                                                                          markets, where competitive
                      standards, which allows a sustained advantage over
                                                                                   advantage can be driven by IP-
                      other market competitors.
                                                                                   based differentiation.
                      IP is used to create a barrier around the market,
                                                                                   This tactic is particularly powerful
                      preventing would-be competitors from offering
Define                                                                             in new or emerging marketplaces.
                      competing products. Boundaries can be defined in a
Boundaries                                                                         An up-front, targeting IP
                      number of ways, e.g. through the creation of a patent
                                                                                   investment will yield significant
                      thicket, through the ring fencing of a market, or
                                                                                   long-term returns.
                      through a standard-setting patent ambush.
                                                                                   Most impact in markets where
                      IP is leveraged to expand on the value and utility of        brand image & perception of
Expand and
                      the organization’s brand identity. The development of        expertise are drivers of company
Protect
                      IP is aligned with key characteristics of the brand and      success, e.g. consumer goods
Brand
                      is used to communicate expertise and dominance in            companies, or startups where
                      the technology area.                                         brand is used to communicate
                                                                                   with investors.
                      The organization out-licenses owned IP to                    Allows access to multiple and
License IP            customers, suppliers, competitors and if desired, into       often varied markets. Provides
                      non-core market applications. Patents can be mined           mechanism to collect revenue
                      from the existing IP portfolio or created for licensing.     from non-core businesses.
                      IP is used to increase the position of the organization
Gain
                      in negotiations and transactions, e.g. by increasing         Provides leverage in partnerships
Transaction
                      bargaining power with partners, through the sale of          and agreements; IP can be used
Leverage
                      intellectual assets, the establishment of joint              as non-cash stake.
                      ventures, and the trading or pooling of IP rights.
                                                                                   Applies primarily to publicly
                      IP is used to generate, grow and protect income,
Increase                                                                           traded companies; can also be
                      increasing the NPV of future cash flows. It therefore
Shareholder                                                                        used to show value to private
                      increases the value of the firm as a whole, through
Value                                                                              investors. Has been effectively
                      targeted IP investment that supports business
                                                                                   used link innovation and IP to
                      operations.
                                                                                   growth.




U.S. Postal Service Office of Inspector General                                                             December 18, 2013
                                                                21
RARC-WP-14-003                                                          Towards a Postal Service Intellectual Property Strategy




Appendix D Company Examples of ROI Types
Improve Competitive Advantage: Gillette
King C. Gillette founded the Gillette Company in 1904, to manufacture and market
men’s safety razors. Procter and Gamble acquired the company in 2005. The brand
                                  value of the company is estimated at $16.8 billion, and
                                  annual sales are $8.3 billion.20
     Figure 7: Gillette Patent
                                                  Gillette uses IP to increase and protect the competitive
                                                  advantage of its razor and blade products in a crowded
                                                  marketplace. It holds an 80% share of the US safety
                                                  razor blade market, and has maintained its competitive
                                                  advantage through significant IP investment ever since
                                                  its first, market-creating patent in 1904.21

                                                  Define Boundaries: Qualcomm
                                                  Qualcomm is a $20 billion semiconductors company,
                                                  founded in 1985. It is primarily engaged with the design
                                                  and manufacture of digital communications products,
                                                  including CDMA and OFDMA technologies.22

                                   Qualcomm uses IP to ring-fence wireless data, owning
                                   a patent thicket covering CDMA, 2G and 3G wireless
  Source: Wikimedia Commons, 2013. data technology. It holds the most “mobile patent
                                   applications out of any corporation in the world”,
                                   meaning any competitor or other market actor wanting
to engage in the mobile data space has to pay a “hefty royalty” to do so.23 In 2013,
Standard and Poor listed Qualcomm as the third-fastest growing technology company in
the US.24



20
   “Gillette,” Forbes, October 2012, http://www.forbes.com/companies/gillette/.
21
   Jack Neff, “Gillette Feels Market Share Is Not the Best That It Can Get,” Advertising Age, September 24, 2012,
http://adage.com/article/news/gillette-feels-market-share/237379/.
22
   “Qualcomm,” Forbes, May 2013, http://www.forbes.com/companies/qualcomm/. Code division multiple
access (CMDA) is a technology used to distribute wireless radio signals. It is commonly used in cell phone
communications. See “Glossary”, CTIA, http://www.ctia.org/resource-library/glossary/archive/cdma.
Orthogonal Frequency Division Multiple Access (OFDMA) is a key technology used in transmitting large
amounts of digital data. It plays an important role in wireless broadband. See “History of OFDMA and How it
Works”, Webopedia, http://www.webopedia.com/DidYouKnow/Computer_Science/2005/OFDMA.asp, and
“OFDMA: A landmark technology,” Runcom, http://www.runcom.com/Technology.
23
   “Qualcomm: The King of Patents,” Seeking Alpha, August 22, 2011, http://seekingalpha.com/article/289046-
qualcomm-the-king-of-patents.
24
   Steve Brachmann, “Qualcomm: Diversified Innovation and Aggressive Patenting Leads to Success,” IP Watchdog,
August 14, 2013, http://www.ipwatchdog.com/2013/08/14/qualcomm-diversified-innovation-and-aggressive-patenting-
leads-to-success/id=44640/.


U.S. Postal Service Office of Inspector General                                                            December 18, 2013
                                                            22
RARC-WP-14-003                                                       Towards a Postal Service Intellectual Property Strategy



Expand and Protect Brand: Dyson
Dyson Ltd is a British technology company, founded in 1993. It designs and sells
innovative vacuum cleaners, bladeless fans, heaters, and hand dryers. Annual Dyson
revenue is £1 billion ($1.6 billion). 25

Dyson leverages IP and innovation as a core part of its brand positioning in the vacuum
cleaner and air management market. It follows a two-part strategy to protect the brand:
firstly, through a focus on invention and patenting in communications, and secondly
through vigilant monitoring of infringement, and enforcement of existing IP.

License IP: GE
GE is a U.S. diversified technology and financial services company, founded in 1892. Its
segments include Energy Infrastructure, Aviation, Healthcare, Transportation, Home &
Business Solutions, and GE Capital. It is number 4 on the Forbes Global 2000. Sales
were $147 billion in 2012.26

GE used selective licensing of IP to drive dominance of the domestic wind turbine
market. Given GE’s IP-based control of the market, competitors were limited to three
options: they could license the technology at “exorbitant” rates, avoid the patents by
using antiquated technology, or face infringement lawsuits.27 This control of the market
allowed GE to extract a considerable ROI from its IP.

Gain Transaction Leverage: Boeing
The Boeing Company is a U.S. aerospace company, founded in 1916. Total sales in
2012 were $81.7 billion. Boeing operates in five segments: Commercial Airplanes,
Military Aircraft, Network & Space Systems, Global Services and Support, and Boeing
Capital Corporation.28

Boeing used IP to increase its transaction leverage and protect its interests with
partners in the development of the 787 Dreamliner. IP was used to maintain control of
the highly complex, outsourced production process, with over 1,000 patents leveraged
alongside trade secrets to protect Boeing’s position while engaging a complex network
of value chain participants.




25
   “Dyson sales and profits boosted by US and Japan,” BBC News, September 7, 2012,
http://www.bbc.co.uk/news/business-19515485.
26
   “General Electric,” Forbes, May 2013, http://www.forbes.com/companies/general-electric/.
27
   Susan Decker, “Mitsubishi Heavy Told to Pay GE $170 Million Over Turbines,” Bloomberg, March 8, 2012,
http://www.bloomberg.com/news/2012-03-08/mitsubishi-heavy-told-to-pay-ge-170-million-over-turbines.html.
28
   “Boeing,” Forbes, May 2013, http://www.forbes.com/companies/boeing/.


U.S. Postal Service Office of Inspector General                                                         December 18, 2013
                                                      23
RARC-WP-14-003                                                       Towards a Postal Service Intellectual Property Strategy



Increase Shareholder Value: AOL
AOL Inc. is a U.S.-based web services company, with 2012 sales of $2.19 billion. It was
founded in 1985. AOL stock reached a high of $90 in 1999, at the peak of the web
boom. It is now at $35.29

AOL increased shareholder value by $700 million over analyst predictions when it
divested its IP portfolio to Microsoft in 2012. Market capitalization immediately jumped
by $700 million due to the previously under-valued IP, bringing an immediate return to
shareholders.




29
     “AOL, Inc.,” Google Finance, https://www.google.com/finance?q=NYSE:AOL.


U.S. Postal Service Office of Inspector General                                                         December 18, 2013
                                                       24
RARC-WP-14-003                                             Towards a Postal Service Intellectual Property Strategy



Appendix E                         Five Case Studies of IP Strategies
The research team developed five case studies to highlight organizations that have
effectively monetized IP assets and/or developed successful IP strategies. These five
case studies are Swiss Post, Google, GE and Quirky, NASA, and MPEG-LA. Cases
were drawn from a number of industries, including the postal and logistics industries, to
illustrate different IP strategic approaches. Examining these companies highlights IP
approaches that emphasize internal innovation to promote diversification, use of open
source development, crowdsourcing, and partnerships.

Key points from the cases that are applicable to the Postal Service include:

          Swiss Post: A focus on strong innovation development processes will lead to
           higher output of new products and services. However, maintaining awareness of
           IP ownership in new launch areas is important to avoid IP disputes.

          Google: The Postal Service could identify a set of patents to be made available
           for use by others through an open source license and a guarantee of no
           enforcement. The benefit would be increased adoption and expansion around
           that particular technology area.

          General Electric/Quirky: Some form of crowdsourcing could be used by the
           Postal Service to increase flow of ideas, and could also provide a controlled
           mechanism for working with smaller entities and/or individual inventors.

Case Study 1: Swiss Post
Swiss Post is the national postal service of Switzerland. It was founded in 1849, and in
2012 restructured to become a public company owned by the Swiss Confederation.

Swiss Post represents an example of a public, national postal service successfully
navigating changing regulatory context and consumer preferences by using innovation
to drive development of profitable services.




U.S. Postal Service Office of Inspector General                                               December 18, 2013
                                                  25
RARC-WP-14-003                                                               Towards a Postal Service Intellectual Property Strategy



                                                  Table 10: Profile of Swiss Post

                                    Profile                                            IP Issues
                   2012 profits $932 million; Public                       Need for profitability; decline of
                    company, state-owned                                     first class mail
                   Diverse & international product                         Expansion to U.S. met with
                    offerings: consumer finance, public                      RPost suit for patent infringement
                    transportation, hybrid mail, and online                 Create innovative new
                    identity protection                                      approaches while protecting
                   4 market units: communications,                          existing market
                    logistics, retail finance and public
                    transportation
                   2012: Moved from government agency
                    status to publicly owned company
                   Used new entrepreneurial freedom as
                    public company to drive further
                    innovation
                                                              Approach
                   Centralized Innovation Management program, oversight by Chief Innovation Officer
                   Each internal department is allocated 0.15% of forecasted departmental revenue to
                    invest in innovative projects
                   Open innovation using Postidea & ActionJam external ideation platforms, alongside
                    idea incubator ‘PostLab’ in partnership with universities
                   Partnership agreements underpin success: only partner with small companies,
                    generally startups, lowers risk
                                    30
       Source: Swiss Post Ltd.

IP Result, Market Impact
For Swiss Post, innovation has driven the low-risk diversification of services while
protecting the core business in a changing environment. The PostIdea platform has
resulted in positive ROI idea generation, and innovative products have consistently
been brought to market. The focus on innovation and IP has brought continued
profitability, and increased brand value. Reflecting this, in 2011 the Universal Postal
Union awarded Swiss Post the title of Most Innovative Service Provider of e-Postal
Solutions.31




30
   “Swiss Post achieves solid annual result,” March 3, 2013, Swiss Post Ltd., http://www.post.ch/en/post-
startseite/post-archive/2013/post-mm13-jahresergebnis-post/post-jobs-und-karriere-news.htm, “Innovation
management: Enabling innovations,” Swiss Post Lt., http://www.post.ch/en/post-startseite/post-konzern/post-konzern-
uebersicht/post-konzern-innovationen/post-konzern-innovationsmanagement.htm, and Andrea Stucki, “When, why,
and how is open innovation open to postal companies,” November 19, 2010, Second Annual Conference on
Competition and Regulation in Network Industries, Center for European Policy Studies,
http://crninet.com/2010/2010%20post%20d.pdf.
31
   “Innovation: what we are thinking today about the markets of tomorrow,” Swiss Post Ltd.,
http://www.post.ch/en/post-startseite/post-konzern/post-publikationen/post-dossiers/post-dossier-innovation.htm.


U.S. Postal Service Office of Inspector General                                                                 December 18, 2013
                                                                26
RARC-WP-14-003                                                              Towards a Postal Service Intellectual Property Strategy



                                 Table 11: Pros and Cons of the Swiss Approach

                                    Pros                                               Cons
           Successfully used innovation to drive
            diversification of product offerings                    Did not adequately landscape existing IP
           Navigated hybrid IP system: internal                     when expanding internationally; led to an
            development, partnerships, open                          infringement suit by RPost
            innovation

How applicable to the Postal Service?
Swiss Post was able to change from a traditional government agency to a government
owned corporation, which allowed more entrepreneurial freedom. While the Postal
Service is unlikely to do this (it is generally barred from offering new nonpostal
products), studying Swiss Post’s approach to centralized and well-executed innovation
and IP processes remains applicable to and useful for the Postal Service.

Case Study 2: Google
                                                  Table 12: Profile of Google

                                  Profile                                           IP Issues
              •     Internet giant specializing in search,            •   Google as a patent titan in industry
                    cloud computing, software and                     •   Large portfolio, seeks to drive
                    online advertising                                    innovation in non-core business
              •     Profit $10.74 billion in 2012                         areas
              •     Acquired Motorola Mobility for $12.5
                    billion in 2011, primarily for 17,000
                    patent portfolio
                                                            Approach
              •     89 patents made available to any non-commercial (open source) developers
              •     Patents concern data center management, web browser development
              •     Google pledges to not enforce infringement of any of these patents, as long as
                    products created are not monetized
              •     Ensures open competition in this business area

                           32
       Source: Google.

Google is a U.S. computer services giant with 2012 sales of $50 billion.33 Its business is
focused on information processing and delivery, including search, advertising, and
operating systems. In addition to a traditional IP strategy used for much of its business,




32
   “2013 Financial tables,” Google, http://investor.google.com/financial/tables.html, and Dan Costa, “Why Google is
buying Motorola Mobility,” PC Magazine, August 15, 2011, http://www.pcmag.com/article2/0,2817,2391094,00.asp.
33
   “Google,” Forbes, http://www.forbes.com/companies/google/.


U.S. Postal Service Office of Inspector General                                                                December 18, 2013
                                                              27
RARC-WP-14-003                                                     Towards a Postal Service Intellectual Property Strategy



Google recently opened 89 patents to free use by the open source software community,
pledging not to enforce infringement.34

IP Result, Market Impact
The eventual market impact of the open source patent pool has not yet been realized,
due to its recent establishment. The expected result is that Google’s standing as a
platform is improved, due to its integration with freely available technology developed
using the open source patents. Google has had great success with the open source
Android mobile phone operating system, achieving a market share of more than 60
percent of smartphones.35 The ubiquity of the Android system provides a broad platform
for Google-branded applications such as Gmail, as well as a platform for third party
apps sold through the Google Play store. Open source patents also create positive
public relations and increase Google’s standing in certain technology and business
communities.

                                Table 13: Pros and Cons of the Google Approach

                                  Pros                                       Cons
           Allows organic, low-cost development of
            ecosystem around non-key patents
           Opens up positive public conversation          Not a direct monetization strategy
            about IP use                                    (though could create indirect
           Could be particularly appropriate for           monetization through market growth)
            public goods, and information goods with
            strong network effects.



A similar approach was deployed by Open Invention Network (OIN), which is an open
source patent protection network centered on Linux technology. IBM, NEC, Novell,
Philips, Red Hat, and Sony launched OIN in 2005. The network makes more than 600
patent families available royalty-free to licensees. In return, the licensee agrees not to
assert any of its own portfolio against Linux-based technologies.36 It has been highly
successful as a defense of the Linux space from patent enforcement, increasing use of
Linux as a platform. The network covers over 1,000 pieces of software.

Open source IP represents a low-cost method to increase innovation on a non-core
platform.




34
   “Open patent non assertion pledge: Patents in the service of open source”, Google,
http://www.google.com/patents/opnpledge/patents/.
35
   Ingrid Lunden, “Android, Led By Samsung, Continues To Storm The Smartphone Market, Pushing A Global 70%
Market Share,” TechCruch, July 2013, http://techcrunch.com/2013/07/01/android-led-by-samsung-continues-to-
storm-the-smartphone-market-pushing-a-global-70-market-share/?ncid=tcdaily.
36
   Roger Parloff, “Amid the patent wars, a powerful act of non-aggression,” February 13, 2013,
http://tech.fortune.cnn.com/2013/02/13/amid-the-patent-wars-a-powerful-pact-of-non-aggression/.


U.S. Postal Service Office of Inspector General                                                       December 18, 2013
                                                     28
RARC-WP-14-003                                                         Towards a Postal Service Intellectual Property Strategy



How applicable to the Postal Service?
Open source approaches have traditionally been used in software development.
Achieving scale in software development is often faster and cheaper through open
source than other approaches, because a wider range of developers contribute to
improving the software, fixing bugs faster, and accelerating the time from conception to
release. Open source IP programs would be most applicable to postal-related software
technologies.

The Postal Service could use open source patent pools as an alternative to defensive
publication. In addition, the Postal Service could invent a platform software product and
invite others to build on top of it; thus gaining more rapid adoption and market share in a
new area using this approach.

Case Study 3: GE and Quirky
Quirky is a U.S. startup founded in 2009. It hosts an online community that votes on
invention ideas, then manufactures and distributes finished products. The company
raised $68 million in venture capital in September 2012.37 GE is using Quirky as a
platform to crowdsource new product designs.

                                            Table 14: Profile of GE and Quirky

                                  Profile                                      IP Issues
                   Partnership between product                     GE seeking low cost, low risk,
                    development startup Quirky and                   crowdsourced product development
                    consumer goods giant GE                         Inventors seeking measure of IP
                   Encourages individual inventors to               protection, development support
                    innovate on GE technologies, using
                    GE IP
                   Project showcased on publicly
                    available website & development
                    platform
                                                          Approach
                   Defined primary focus of partnership:
                         o Home automation technology, smartphone controlled devices, “the internet
                            of things”
                   Inventors can submit ideas, leverage GE’s dominant patent portfolio
                   Product development process managed through Quirky’s crowdsourcing engine:
                    determines design, name, price, and other specifications
                   If product moves through to market, inventor, Quirky and GE share profits




37
  Donna Fenn, “Quirky gets backing from Andreessen Horowitz and Kleiner Perkins,” New York Times, September 7,
2012, http://dealbook.nytimes.com/2012/09/07/quirky-gets-backing-from-andreessen-horowitz-and-kleiner-perkins/.


U.S. Postal Service Office of Inspector General                                                           December 18, 2013
                                                           29
RARC-WP-14-003                                                            Towards a Postal Service Intellectual Property Strategy



IP Result, Market Impact
The development process is still ongoing: the website platform is open, and ideas are
being submitted, and several products were recently released for sale to the public.38

The collaboration structure is promising: mutual benefit is created for all market
participants on an appropriate and accessible platform. However, the scale of this
project’s impact is likely to be negligible in the context of GE as a whole. For that
reason, this project can be thought of as a kind of pilot.

                          Table 15: Pros and Cons of the GE and Quirky Approach

                                    Pros                                             Cons
            Capitalizes on strong, trustworthy brand
            Outsources R&D processes, and some                 Quality of products not guaranteed
             of the risk                                         (though GE does retain control over
            Creates consumer engagement and                     what reaches market)
             interest around the product

How applicable to the Postal Service?
Crowdsourced invention may not be as relevant to the postal industry as it is consumer
goods; individual inventors may have less hands on experience with postal
technologies. For that reason, crowd-sourcing initiatives would be most applicable for
public-facing technologies. However, the concept of a large entity defining a program
and a process to work with small companies and/or individual inventors is very
applicable to the Postal Service.

Case Study 4: NASA
NASA uses a combination of IP development and monetization approaches (licensing,
partnering, open innovation), depending on need.




38
     “Quirky + GE,” Quirky, 2013, http://www.quirky.com/shop/quirky-ge.




U.S. Postal Service Office of Inspector General                                                              December 18, 2013
                                                          30
RARC-WP-14-003                                                            Towards a Postal Service Intellectual Property Strategy



                                                  Table 16: Profile of NASA

                                    Profile                                         IP Issues
              •     Federal agency, responsible for                   •   Federal agency status requires
                    science and technology related to air                 cost-effective innovation
                    and space                                         •   Differing IP needs depending on
              •     Portfolio includes over 1,000 active                  agency focus: core tech or
                    patents                                               portfolio asset
              •     Innovation driven through 10 NASA                 •   Infringement lawsuits can be
                    Research Centers, each holding its                    brought by DoJ (rare)
                    own IP portfolio
                                                           Approach
              •     Combination of approaches to IP management:
                       • Licenses allow partners exclusive, partially exclusive or non-exclusive rights
                            to NASA IP, negotiated through research centers. Transaction is purely
                            monetary, with licensee compensating NASA for use of IP.
                       • Partnership Agreements represent active NASA participation in
                            IP/technology development, working with a partner. Various models for
                            partnership depending on mutual need, including shared-resource
                            partnerships, or co-development of technologies.
                       • Open Innovation through partnership with InnoCentive provides low-cost,
                            crowd-sourced responses to carefully selected research questions.
              •     NASA can spinoff inventions as commercial products, not competing with NASA
                    work, e.g. Memory foam, scratch resistant lenses
                          39
        Source: NASA.

IP Result, Market Impact


     NASA Open Innovation Statistics
     Seven InnoCentive challenges attracted:                       FY2010 IP Statistics
         2,900 solvers from over 80 countries                     1,722 New inventions disclosed
         Average of 419 solvers per challenge                     144 Patent applications filed
         221 completed solutions submitted to
                                                                   129 Patents issued
            NASA
     NASA deemed the project a complete
     success



In FY 2010, NASA negotiated 271 income bearing IP licenses, of which 122 were
exclusive. Those licenses brought in $3.9 million in licensing income. 4,276 partnership
agreements were also negotiated in 2010.40


39
   “NASA technology transfer portal,” NASA, http://technology.nasa.gov/, and “NASA technologies available for
licensing,” and “NASA Technologies Available for Licensing,” NASA,
http://www.nasa.gov/offices/oct/communications/rss_licensing.html.
40
   “Federal Laboratory Technology Transfer, Fiscal Year 2010: Summary report to the President and Congress,”
National Institute for Standards and Technology, August 2012, http://www.nist.gov/tpo/publications/upload/Fed-Lab-
TT_FINAL.pdf.


U.S. Postal Service Office of Inspector General                                                              December 18, 2013
                                                             31
RARC-WP-14-003                                                          Towards a Postal Service Intellectual Property Strategy



The Open Innovation initiative was highly successful: all seven of the challenges issued
had useable responses. Two of seven were given full awards, while five of seven
received partial rewards. NASA plans to continue Open Innovation programs through
collaboration with Random Hacks of Kindness (RHoK) and the popular ‘SpaceApps’
events.41

NASA’s General Counsel’s office administers the agency’s IP program in conjunction
with the Innovative Partnerships Programs (IPP). The General Counsel establishes
agency-wide criteria for invention reporting, patent application preparation, and filings
with USPTO, and handles litigation and the specific legal terms of licensing
negotiations.42 The IPP, which reports to the Chief Technology Officer, is responsible for
collecting inventions from NASA scientists and contractors, as well as initiating licensing
negotiations and IP-related partnerships with the private sector. IPP supports all of
NASA’s mission directorates, and is embedded in each of NASA’s field offices.43

                                 Table 17: Pros and Cons of the NASA Approach

                                  Pros                                            Cons
           Adaptable depending on particular
            technologies and NASA needs                     Licensing revenue is not particularly high,
           Well suited to working with small                due to NASA’s research focus
            businesses and individual inventors

How Applicable to the Postal Service?
While both government agencies, there are large differences between the two entities.
NASA is research focused and a federal cost-center and the Postal Service is
operations focused and is required to be financially self-sustaining. However, the use of
a combination of strategies for IP and innovation management can be adapted to the
Postal Service needs. NASA appears to have assessed its innovation and IP needs,
and implemented varied tactics to respond to those specific needs; the Postal Service
should do the same.

Case Study 5: MPEG-LA
MPEG-LA is a firm created to operate patent pools in particular technology areas. It
originally covered internet video patents (MPEG), and has subsequently branched out
to different patent pool ‘programs’ covering digital standards, including self-organizing
wireless networks (Wireless Mesh), and digital television.44 Future plans include
41
   “InnoCentive investigation of the challenge driven innovation platform at NASA,” InnoCentive, Inc., October 25,
2010, http://www.nasa.gov/pdf/572344main_InnoCentive, _NASA_PublicReport_2011-0422.pdf.
42
   “Office of the General Counsel: Overview,” NASA, http://www.nasa.gov/offices/ogc/commercial/index.html, and
“Innovation transfusion request for information,” NASA,
http://www.nasa.gov/offices/ipp/innovation_incubator/innovation_transfusion/it_request_prt.htm.
43
   “Innovation partnerships program,” NASA, November 19, 2009, http://www.nasa.gov/centers/dryden/news/X-
Press/aerovations/dynamic_ipp.html.
44
   “Justice department approves proposal for joint licensing of patents essential for meeting video technology
standard used in electronics and broadcast industries,” Department of Justice, June 26, 1997,
http://www.justice.gov/atr/public/press_releases/1997/1173.htm.


U.S. Postal Service Office of Inspector General                                                            December 18, 2013
                                                         32
RARC-WP-14-003                                                              Towards a Postal Service Intellectual Property Strategy



creating ‘programs’ in more diverse technology areas, including e-commerce and
education.45

The company monetizes the IP that they hold by issuing licenses to companies wishing
to use technology standards that include MPEG-LA patents.

                                                  Table 18: Profile of MPEG-LA

                                 Profile                                           IP Issues
              •     1,000 patent pool for MPEG video               •    Monetize IP while pushing increased
                    standards, broadly issues licenses                  adoption of standards
              •     Allows patent holders to monetize              •    Push to dominate emerging
                    IP, keeping standard open to                        technologies
                    market participants
                                                             Approach
              •     Form ‘programs’ of patent pools available to diverse markets, from e-commerce to
                    education, with core business focus in MPEG & H.264 video codec standards
              •     Issues licenses to market participants, monitor for infringement from non-license
                    holders
              •     IP revenue from licenses and infringement awards, constant expansion to new tech
                    markets

IP Result, Market Impact
MPEG-LA’s strong patent pools have attracted many high profile licensees, including
Google. Patent owners include Apple, Panasonic, Cisco, and Samsung.

                              Table 19: Pros and Cons of the MPEG-LA Approach

                                  Pros                                                Cons
           Greater enforcement power, compared
            to each company asserting its own
                                                                Could invite criticisms of troll-like behavior,
            patents
                                                                 especially by any entity that is a target for
           Allows a licensee to buy into an entire
                                                                 enforcement
            technology
                                                                Requires an entity to form and manage the
           Self-sustaining monetization of
                                                                 patent pool
            patents, separate from routine
            business operations



MPEG-LA has had a significant market impact. The H.264 pool has driven adoption of
the most commonly used video codec standard, which is integrated into Blu-Ray,
YouTube, iTunes, and Adobe Flash platforms.46

MPEG-LA has successfully created a market dynamic where only license holders or
patent holders are able to navigate the patent thicket.

45
   “About: Revolutionizing intellectual property rights management,” MPEGLA,
http://www.mpegla.com/main/Pages/About.aspx.
46
   “AVC/H.264 introduction,” MPEGLA, http://www.mpegla.com/main/programs/AVC/Pages/Intro.aspx.


U.S. Postal Service Office of Inspector General                                                                December 18, 2013
                                                              33
RARC-WP-14-003                                          Towards a Postal Service Intellectual Property Strategy



How applicable to the Postal Service?
The MPEG-LA model represents one potential component option for a hybrid IP
strategy: that of building a patent pool with other patent holders.

This model would be particularly powerful in key technology areas where joining forces
with other market players would create mutual benefit.

Additionally, a patent pool arrangement would allow the Postal Service to externalize
patent infringement monitoring/enforcement to a newly created pool management entity.

There are various ways that the Postal Service could construct a patent pool. The
Postal Service could lead the creation of a third party postal licensing organization that
specializes in patent pools. Alternatively, an in-house IP licensing program focused on
patent pools could be explored.




U.S. Postal Service Office of Inspector General                                            December 18, 2013
                                                  34
RARC-WP-14-003                                                                   Towards a Postal Service Intellectual Property Strategy



Appendix F                         Patent Terminology Glossary
                                              Table 20: Important Definitions

                  Term                                                           Definition

                                                  To obtain information or input into a particular task or project by
Crowdsource                                       enlisting the services of a number of people, either paid or unpaid,
                                                                              a
                                                  typically via the Internet.
                                                  An intellectual property strategy used to prevent other parties from
                                                  obtaining patents on an innovation. The strategy involves disclosing a
                                                  detailed, enabling description and/or drawing of the innovation in such
Defensive Publication                                                                                         b
                                                  a way that it enters the public domain, becoming prior art. This is a
                                                  way of attempting to block future patent applications at a relatively low
                                                  cost.
                                                  The structured formation of ideas or conceptions, often by using
Ideation
                                                  specialized software and processes.

                                                  The practice of managing intellectual assets, including intellectual
Intellectual Asset                                property such as patents, trademarks, and registered designs, as well
Management (IAM)                                  as organizational intellectual assets such as trade secrets, contracts
                                                                             c
                                                  and specialist know-how.
                                                  A carefully managed process to generate innovations, where external
Open Innovation                                   parties are used in combination with internal management to generate
                                                  ideas in response to predefined problems or opportunities.
                                                  The practice of making public certain parts of intellectual property
                                                  portfolios or institutional knowledge, in order to further the
                                                  development of technologies using those standards. The organization
Open Source
                                                  or company releasing the IP does not typically retain significant control
                                                  over how the IP is used, apart from broad restrictions such as ‘not for-
                                                  profit applications.’

                                                  Patent monetization strategy where an organization develops
                                                  standards for a particular technology type, then (after standard
Patent Ambush                                     development) reveals that they own a patent to a core part of the
                                                  technology. This forces users of the technology standard to pay a
                                                  licensing fee to the organization.

                                                  A patent family a group of patents covering the same invention and
Patent Family                                     disclosed by a common inventor, patented in multiple countries or with
                                                  multiple types of applications (e.g. continuations, divisionals).
                                                  A patent pool is a consortium of at least two companies or
Patent Pool                                       organizations, agreeing to cross license their patents relating to a
                                                  particular technology.
                                                  An overlapping set of patent rights requiring that those seeking to
                                                  commercialize new technology obtain licenses from multiple partners,
Patent Thicket                                    or, a dense set of patent rights held by a single party, that requires
                                                  extensive licensing to navigate, i.e. ‘invent around’ processes are
                                                                        d
                                                  largely not possible.




U.S. Postal Service Office of Inspector General                                                                     December 18, 2013
                                                                   35
RARC-WP-14-003                                                                    Towards a Postal Service Intellectual Property Strategy



                  Term                                                            Definition

                                                  The practice of protecting a particular technology by extensively filing
Ring-Fencing                                      patents adjacent to core technologies, creating a ‘ring fence’ of
                                                  protection around the technology.
                                                  The description of an invention in sufficient detail that a person skilled
                                                  in the technology is capable of making and using that invention,
                                                  independently of other input or contact with the inventor. This is the
Enabled Description                               pre-requisite for the level of description in a patent disclosure, and this
                                                  requirement is also present for effective defensive publications. This is
                                                  because an enabled description will then form prior art, preventing the
                                                  invention from being patented in the future.
a
    “Definition of crowdsource in English,” Oxford Dictionaries,
    http://www.oxforddictionaries.com/us/definition/american_english/crowdsource.
b
    To constitute prior art, the defensive publication must meet legal requirements for specificity, or “enablement.”
c
    What are intellectual assets, anyway?,” ingot, 2010,
    http://moodle.venta.lv/moodle/pluginfile.php/12162/mod_resource/content/0/IP_identification/What_are_Intellec
    tual_assets.PDF.
d
    Carl Shapiro, “Navigating the Patent Thicket: Cross Licenses, Patent Pools, and Standard Setting in Innovation
    Policy and the Economy , eds. Adam B. Jaffe, Josh Lerner, and Scott Stern, (Cambridge, MA: The MIT Press),
    http://faculty.haas.berkeley.edu/shapiro/thicket.pdf, pp. 119-150.




U.S. Postal Service Office of Inspector General                                                                      December 18, 2013
                                                                   36
RARC-WP-14-003                                                         Towards a Postal Service Intellectual Property Strategy




                                        U.S. Postal Service Office of Inspector General
                                                     1735 N. Lynn Street
                                                     Arlington, VA 22209

                                                  Telephone: 703-248-2100
                                                      www.uspsoig.gov

                                         For media inquiries, contact Agapi Doulaveris
                                                 Telephone: 703-248-2286
                                                  adoulaveris@uspsoig.gov


U.S. Postal Service Office of Inspector General                                                           December 18, 2013
